<html>
<title> - HEARING ON MILITARY AND OVERSEAS VOTING: OBSTACLES AND POTENTIAL SOLUTIONS</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]


 
   HEARING ON MILITARY AND OVERSEAS VOTING: OBSTACLES AND POTENTIAL 
                               SOLUTIONS

=======================================================================

                                HEARING

                               before the

                       SUBCOMMITTEE ON ELECTIONS

                   COMMITTEE ON HOUSE ADMINISTRATION
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                               __________

                  HELD IN WASHINGTON, DC, MAY 21, 2009

                               __________

      Printed for the use of the Committee on House Administration


                       Available on the Internet:
   http://www.gpoaccess.gov/congress/house/administration/index.html


                  U.S. GOVERNMENT PRINTING OFFICE
52-314                    WASHINGTON : 2009
-----------------------------------------------------------------------
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092104 Mail: Stop IDCC, Washington, DC 20402�090001

                   Committee on House Administration

                ROBERT A. BRADY, Pennsylvania, Chairman
Zoe Lofgren, California              Daniel E. Lungren, California
  Vice-Chairwoman                      Ranking Minority Member
Michael E. Capuano, Massachusetts    Kevin McCarthy, California
Charles A. Gonzalez, Texas           Gregg Harper, Mississippi
Susan A. Davis, California
Artur Davis, Alabama
                 S. Elizabeth Birnbaum, Staff Director
               Victor Arnold-Bik, Minority Staff Director
                                 ------                                

                       Subcommittee on Elections

                  ZOE LOFGREN, California, Chairwoman
Charles A. Gonzalez, Texas           Kevin McCarthy, California
  Vice-Chairman                      Gregg Harper, Mississippi
Susan A. Davis, California
Artur Davis, Alabama


    MILITARY AND OVERSEAS VOTING: OBSTACLES AND POTENTIAL SOLUTIONS

                         Thursday, May 21, 2009

                  House of Representatives,
                         Subcommittee on Elections,
                         Committee on House Administration,
                                                    Washington, DC.
    The subcommittee met, pursuant to call, at 10:04 a.m., in 
Room 1539, Longworth House Office Building, Hon. Zoe Lofgren 
[chairwoman of the subcommittee] presiding.
    Present: Representatives Lofgren, Davis, McCarthy, and 
Harper.
    Staff Present: Liz Birnbaum, Staff Director; Tom Hicks, 
Senior Election Counsel; Janelle Hu, Election Counsel; Jennifer 
Daehn, Election Counsel; Matt Pinkus, Professional Staff/
Parliamentarian; Kyle Anderson, Press Director; Kristin 
McCowan, Chief Legislative Clerk; Daniel Favarulo, Legislative 
Assistant, Elections; Victor Arnold-Bik, Minority Staff 
Director; Peter Schalestock, Minority Counsel; Karin Moore, 
Minority Legislative Counsel; and Salley Collins, Minority 
Press Secretary.
    Ms. Lofgren. Good morning and welcome to the Committee 
House Administration Subcommittee on Elections hearing on 
Military and Overseas Voting: The Obstacles and Possible 
Solutions. This hearing is going to provide an opportunity for 
the committee to learn about the outreach efforts of the 
Federal Voting Assistance Program, the hurdles that military 
and overseas voters encounter when they are trying to vote from 
abroad, and possible policy recommendations to address these 
obstacles.
    In a letter to Congress in March of 1952, President Truman 
wrote, and I quote: ``The men and women who are serving their 
country and, in many cases, risking their lives deserve above 
all others the exercise in the right to vote.'' Unfortunately, 
nearly 60 years later, we are still struggling with the issue 
of military and overseas registration and voting.
    Members of the military and U.S. citizens who live abroad 
are eligible to register and vote under the Uniformed and 
Overseas Citizen Absentee Voting Act of 1986. Despite UOCAVA, 
it is clear that our military and overseas voters are not able 
to register and cast their ballots without numerous 
administrative burdens. Survey data from the Congressional 
Research Service suggests that one in four ballots from 
overseas military voters went uncounted in the 2008 election. 
That figure, coupled with reports from Democrats Abroad that 
roughly one in five overseas voters were unable to return voted 
ballots on time, is cause for great concern.
    The obstacles to having these ballots counted are varied, 
but the most common problems are: the delivery of election 
materials to UOCAVA voters, burdensome absentee ballot 
requirements, and varying State requirements and deadlines. 
While individual States are attempting to address these issues 
by allowing for electronic transmission of blank ballots or 
allowing ballots to be returned via fax or e-mail as well as 
extending registration deadlines, more needs to be done at the 
Federal level to address the issue.
    UOCAVA has produced major improvements, but more effort and 
resources are needed to ensure the Nation's military and 
overseas citizens can successfully exercise their right to 
participate in the American electoral process.
    In closing, I want to acknowledge Chairman Brady, who, 
along with the committee and Ranking Member, Mr. Lungren, are 
dedicated to removing these obstacles and ensuring that 
military and overseas voters can successfully cast their 
ballots; and I hope that this hearing is going to be a material 
important step forward in making this situation better.
    With that, I would recognize the ranking member of the 
subcommittee, Mr. McCarthy, for any opening statement he may 
have.
    Mr. McCarthy. Thank you Madam Chair. I appreciate your 
having today's hearing.
    Last Congress, we had a hearing as well, knowing that the 
voting procedures continue to fail thousands of military 
personnel overseas. I have an opening statement that I will 
submit for the record there, but I would just like to say that 
this has gone on too long. People have risked their lives for 
our liberties, and we have to do something about that. Record 
after record has shown the failure of the process of getting 
these ballots to the military men and women and actually 
getting it back and having their vote counted.
    I would like to ask the Chair if we could work together. I 
know there is a new CRS report that Senator Schumer has. It 
hasn't been shared with anybody else, but it goes along about 
the military voting and the failure process. I would like to 
see if we could get a copy of that as well to work together to 
make sure we solve this problem.
    And I thank you for the hearing.
    Ms. Lofgren. Thank you.
    And, without objection, your full statement will be made 
part of the record and the opening statements of other members, 
without objection, will also be made part of the record.
    [The statement of Mr. McCarthy follows:]

    [GRAPHIC] [TIFF OMITTED] T2314A.001
    
    [GRAPHIC] [TIFF OMITTED] T2314A.002
    
    Ms. Lofgren. I would like to move now to the panel before 
us and to get their testimony, and then we will have an 
opportunity to ask questions.
    First, we have Ms. Gail McGinn. Ms. McGinn serves as the 
Acting Undersecretary of Defense for Personnel and Readiness, 
and that oversees the Federal Voting Assistance Program. Prior 
to her appointment as Deputy Secretary in November of 2002, Ms. 
McGinn was Principal Deputy Assistant Secretary of Defense for 
Force Management, Policy, and Principal Director for Personnel 
Support, Families, and Education. She received a bachelor of 
arts in psychology from William Smith College and her master's 
degree in education from Boston University.
    Next, we have Captain Patricia Garcia. Captain Garcia 
serves as the officer in charge of the 78th Aerospace Medicine 
Squadron, the public health flight at Robins Air Force Base in 
Georgia. In January of 2008, Captain Garcia was appointed the 
Robins Installation Voting Assistance Officer. During the 2008 
election, Captain Garcia directed 65 unit voting assurance 
officers who served nearly 4,000 military personnel and their 
dependents with voter registration and absentee voting 
questions. We thank you Captain Garcia for being here today and 
look forward to your testimony.
    Next, we have Mr. Rokey Suleman. Mr. Suleman currently 
serves as the General Registrar for Fairfax County, Virginia. 
Prior to his appointment in 2008, he was the Deputy Director of 
the Board of Elections in Trumbull County, Ohio. He is a 
certified election registration administrator through the 
Professional Education Program Certification Board at Auburn 
University in Alabama.
    And, finally, we have Ms. Jessie Duff, who is a retired 
gunnery sergeant in the United States Marine Corps. She has 
served on active duty in the Marine Corps for 20 years. 
Following her service, Ms. Duff now acts as a volunteer and 
spokesperson for Military Voting Rights USA, a national network 
dedicated to ensuring that military voters have their votes 
cast and counted. And we thank you, Ms. Duff, for being here 
today.
    We have a procedure here where the full statement of each 
of you will be made part of our official record. We ask that 
your oral testimony consume about 5 minutes, and at the 
conclusion of all of your statements we will have an 
opportunity to ask questions.
    That little machine in the middle of the table is a warning 
light. When the yellow light goes on, it means actually you 
have a minute to go on your 5 minutes. And when the red light 
goes on, it means--it always catches people by surprise that 
the whole 5 minutes is gone. I certainly won't cut you off in 
the middle of a sentence, but we would ask that you conclude 
when the light goes on so that everybody can be heard.

STATEMENTS OF THE HONORABLE GAIL McGINN, ACTING UNDERSECRETARY 
  FOR PERSONNEL AND READINESS, DEPARTMENT OF DEFENSE; CAPTAIN 
 PATRICIA GARCIA, VOTING ASSISTANCE OFFICER, UNITED STATES AIR 
   FORCE; ROKEY SULEMAN, GENERAL REGISTRAR, FAIRFAX COUNTY, 
 VIRGINIA; AND JESSIE JANE DUFF, GUNNERY SERGEANT, USMC (RET.)

    Ms. Lofgren. So if we could begin with you, Ms. McGinn.

             STATEMENT OF THE HONORABLE GAIL McGINN

    Ms. McGinn. Thank you, Madam Chair, Congressman Harper, and 
distinguished members of the subcommittee. Thank you for the 
opportunity to testify about the obstacles service members and 
overseas voters may face in exercising their right to vote and 
the initiatives we have undertaken to solve those problems.
    I am joined at the table here today by Mr. Tom Bush. Mr. 
Bush is the Acting Director of the Federal Voting Assistance 
Program; and he can help answer any detailed questions you may 
have, in addition to me.
    The Department is dedicated to making the absentee voting 
process easier and more straightforward. Time and distance, 
mobility, and varying State requirements are barriers that make 
the absentee voting process difficult for service members, 
their families, and U.S. citizens who live outside the United 
States.
    First is the obstacle of time and distance. The process to 
register to vote, request an absentee ballot, and return the 
marked ballot for UOCAVA voters can be much more daunting than 
for voters who live in the same location as where they vote. 
While there have been extraordinary efforts to expedite the 
movement of voting material through the postal system, time and 
distance create challenges, particularly in areas where mail 
service is minimal, intermittent, or nonexistent. Peace Corps 
workers, submariners, forward-deployed service members, to a 
name a few, may be most affected.
    An important solution to the time and distance problem is 
leveraging technology. Technology can significantly reduce the 
time constraints and eliminate the distance problem for most 
UOCAVA voters.
    For the 2010 elections, the Federal Voting Assistance 
Program is pursuing the next generation of electronic tools to 
assist these voters. We call this initiative the Automated 
Register, Request, and Receive Ballot Process, or R3. R3 will 
expand on our previous tools by adding an online capability to 
complete the Federal write-in absentee ballot and expand and 
enhance the ability of election officials to transmit blank 
ballots. Unlike our previous initiatives, this system will be 
owned and operated by DOD and hosted at DOD facilities, thus 
mitigating potential threats to personal privacy data and 
permitting easy refinements and expansion in the future.
    The next obstacle is mobility. Military and overseas voters 
are a dynamic group. Where they are located today may not be 
where they will be located for the next election. We know where 
military members are assigned and reside. Therefore, it is 
easier to encourage them to notify their State election 
official of their current address. To facilitate this, each 
military service reports that when military members arrive at a 
new duty station, they are provided with a voter registration 
card so they can notify their State election official of their 
new address.
    Further, we have forged and maintained valued partnerships 
with State and local election officials who carry out the 
elections, the United States Postal Service, the Military 
Postal Service Agency, the Department of State, the Department 
of Justice, other Federal agencies and overseas citizen 
organizations and advocacy groups.
    The Federal Voting Assistance Program uses a network of 
voting assistance officers both from the military and the 
Department of State. We have an extensive training program to 
prepare voting assistance officers to perform their duties. You 
will shortly hear from an actual voting assistance officer who 
can describe her work.
    Finally and most importantly is the challenge of varying 
State requirements. The 55 States and territories administer 
their elections differently. This means that registration 
procedures, ballot distribution procedures, voted ballot return 
regulations and deadlines are determined by a large number of 
independent jurisdictions, each jurisdiction with its unique 
requirements.
    We work with the States to promote passage of legislation 
that is uniform among all States for UOCAVA citizens. The 
legislative initiatives we encourage States and territories to 
enact include providing at least 45 days between ballot mailing 
date and the date ballots are due, giving chief State election 
officials the authority to alter election procedures in 
emergency situations, providing a State write-in absentee 
ballot to be sent out 90 to 180 days before all elections, and 
expanding the use of electronic transmission alternatives for 
voting materials. There have been successes with 47 States 
adapting one or more of these initiatives.
    In conclusion, we know that each UOCAVA voter has a unique 
set of circumstances and that one solution is not right for 
everyone. Providing them with as many alternatives as possible 
to register to vote, request a ballot, and return the ballot 
will help each voter find the solution that works best for him 
or her.
    I would like to thank the committee for your continued 
support of our service members, their families, and our 
overseas citizens and all you have done to make it easier for 
them to vote. I look forward to answering your questions.
    Thank you.
    [The statement of Ms. McGinn follows:]

    [GRAPHIC] [TIFF OMITTED] T2314A.003
    
    [GRAPHIC] [TIFF OMITTED] T2314A.004
    
    [GRAPHIC] [TIFF OMITTED] T2314A.005
    
    [GRAPHIC] [TIFF OMITTED] T2314A.006
    
    [GRAPHIC] [TIFF OMITTED] T2314A.007
    
    [GRAPHIC] [TIFF OMITTED] T2314A.008
    
    [GRAPHIC] [TIFF OMITTED] T2314A.009
    
    [GRAPHIC] [TIFF OMITTED] T2314A.010
    
    [GRAPHIC] [TIFF OMITTED] T2314A.011
    
    [GRAPHIC] [TIFF OMITTED] T2314A.012
    
    [GRAPHIC] [TIFF OMITTED] T2314A.013
    
    [GRAPHIC] [TIFF OMITTED] T2314A.014
    
    [GRAPHIC] [TIFF OMITTED] T2314A.015
    
    [GRAPHIC] [TIFF OMITTED] T2314A.016
    
    [GRAPHIC] [TIFF OMITTED] T2314A.017
    
    Ms. Lofgren. Thank you very much.
    Captain Garcia, we would love to hear from you.

              STATEMENT OF CAPTAIN PATRICIA GARCIA

    Captain Garcia. Good morning, Chairwoman Lofgren, Ranking 
Member McCarthy, and members of the subcommittee. Thank you for 
the opportunity to testify today on behalf of the Robins Air 
Force Base Voting Assistance Program.
    I was appointed as the Robins Installation Voting 
Assistance Officer in January, 2008. The Robins Voting 
Assistance Program supports the voting needs of the Warner 
Robins Air Logistics Center, the 78th Air Base Wing, and over 
30 associate units representing six major commands. I direct 
the activities of the Robins Voting Assistance Program 
Committee and 65 unit voting assistant counselors who have 
served over 4,000 military members and their dependents with 
voter registration and absentee voting questions.
    Before I proceed, I would like to emphasize that I can only 
speak to our Voting Assistance Program at Robins Air Force Base 
in Georgia.
    Our responsibilities at the base level are to educate and 
assist military members and their dependents on how to register 
to vote and how to actually cast their vote. We are mandated 
not to pressure any individual to register or vote nor to 
discourage such actions. Our position as voting counselors has 
no authority to provide any legal advice concerning change of 
residency laws, nor to resolve conflicts between members and 
their local registration or voting officials. Military members 
with these types of problems are referred to either the local 
legal office or to the Voting Assistance Program hotline.
    According to established guidance, unit commanders appoint 
a minimum of one unit voting assistance counselor per 100 unit 
members for a total of 65 counselors for Robins Air Force Base. 
These unit counselors were appointed in writing and were 
required to complete their initial voting counselor training by 
means of the Federal Voting Assistance Program Web site online 
workshop.
    In July, 2008, we also held an informational meeting to 
enhance the online training. A detailed discussion was held 
concerning their requirements, responsibilities, and different 
methods that could be employed to accomplish these 
requirements. Numerous resource materials were distributed to 
counselors, including standardized briefings that could be used 
at commander's call or e-mailed directly to their unit members.
    Between August and September, the unit counselors educated 
the Robins Air Force Base populace on the Voting Assistance 
Program, the Federal Voting Postcard, voter registration 
deadlines, and how to vote absentee.
    We focused our educational efforts more heavily during Air 
Force Voter Week and Air Force Absentee Voter Week in September 
and October, respectively. This included articles in the base 
newspaper, posters, reminders on the base electronic 
billboards, and various other high-visibility items. Early 
voting in Georgia for locally registered members was highly 
publicized during the Air Force Absentee Voter Week in October.
    Our program is not limited to the election season. Other 
instructional activities provided by the Robins Voting 
Assistance Program include monthly briefings used to introduce 
and explain the purpose of the Voting Assistance Program to 
first-term airmen and base newcomers. Static voting assistance 
displays with motivational posters, election dates, Federal 
postcard applications, and informational pamphlets are kept 
stocked and current at the base library, military personnel 
office, and at the Base Exchange.
    One last activity I would like to discuss is voting 
assistance services provided to our deployers. Prior to 
deploying at Robins Air Force Base, members are required to 
attend a pre-deployment fair. During this fair, we distribute 
the Robins Voting Assistance Program informational tri-fold. 
Our hope is that these deployers will reference this pamphlet 
and know where to get help with voting questions while 
deployed.
    The biggest challenges faced by the Robins Voting 
Assistance Program were primarily caused by factors outside of 
our control. The voter registration process is not standardized 
from State to State, not even county to county in some States. 
This lack of consistency makes learning how to properly fill 
out the Federal voting postcards very confusing and difficult.
    These Federal voting postcards are primarily filled out by 
hand and therefore at times can be difficult to read. Talking 
to different airmen at Robins, I learned that sometimes this 
illegibility factor cause the postcards to be returned to the 
member by the Postal Service. In at least one instance, the 
member reported information was input incorrectly by a 
registration clerk, which led to disqualification questions 
when the member went to vote. Several members were initially 
denied registration because the voter registration clerks did 
not know the laws pertaining to military residency. The 
variable deadlines for registration and absentee voting 
confused several military members who thought because the 
Georgia deadlines had passed it was too late to register or 
send in their absentee ballot even though their home States had 
later deadlines.
    As an American military voter, I would personally like to 
express my gratitude to all the members of this committee for 
your concern and your assistance in our effort to vote and be 
counted. I look forward to answering your questions concerning 
the Robins Air Force Base Voting Assistance Program.
    [The statement of Captain Garcia follows:]

    [GRAPHIC] [TIFF OMITTED] T2314A.018
    
    [GRAPHIC] [TIFF OMITTED] T2314A.019
    
    Ms. Lofgren. Thank you very much.
    Mr. Suleman, we would love to hear from you.

                   STATEMENT OF ROKEY SULEMAN

    Mr. Suleman. Good morning, Madam Chair, and distinguished 
members of the committee.
    Military and overseas voters encounter significant 
obstacles when it comes to exercising their right to vote. The 
distance a ballot must travel and the short timeframe in which 
it has to travel creates problems that the average American 
voter does not face.
    I have great sympathy for these absentee voters. The first 
vote I ever cast was an absentee ballot in Navy boot camp. 
Although I was medically discharged soon afterward, the 
experience left a definite impression about the importance of 
absentee and military voting.
    Changes have been made to make it easier for military and 
overseas voting citizens to enjoy their franchise. But, given 
today's technology, these changes are not enough.
    The U.S. Postal Service has created a system to help 
election officials disseminate ballots to overseas voters. 
Green tags such as these are now available to mark trays of 
absentee ballots to expedite delivery. APO and FPO ballots are 
sent to three centers based on zip code. They are sent to 
either New York, Miami, or San Francisco. These changes help 
separate time-sensitive absentee mail from the regular flood of 
mail that the USPS processes on a daily basis.
    However, many election officials do not know these extra 
tools are available to them. Education of election officials 
across the country may be needed to help alleviate this 
problem.
    In Fairfax County, my office issued 8,623 UOCAVA ballots 
during the November, 2008, general election. Out of those 8,623 
ballots, 7,332 were returned, a rate of 85 percent.
    A significant reason for the high rate of return of our 
overseas ballots has to be attributed to the fact that Virginia 
allows ballots to be e-mailed to UOCAVA voters. In November of 
2008, 3,483 of our ballots were sent via e-mail. By utilizing 
e-mail, we dramatically shorten the time it takes for UOCAVA 
voters to receive their ballots. This, in turn, allows the 
voter greater time to return their ballot to us. This extra 
time is especially important for military voters in a war zone.
    During the last legislative session, Virginia expanded the 
use of e-mail balloting to include any military voter in the 
United States as well as overseas. I believe it is the first 
step towards allowing election officials to e-mail a ballot to 
anyone outside the borders of the Commonwealth. I will welcome 
that advancement.
    A natural extension of this benefit would be to allow 
voters to return their vote to an office of elections 
electronically. Currently, a Virginia voter must print their e-
mail ballot, fill it out, and return it via the mail or a 
commercial delivery service. This may be problematic for 
military voters in a war zone or civilians in remote areas of 
the world. Allowing electronic transmission of a ballot to an 
office of election will be of great help to our overseas 
voters.
    Virginia faces a significant problem regarding the Federal 
write-in absentee ballot. State law required an address from a 
witness if the FWAB was used simultaneously as an application 
for an absentee ballot and a ballot. The FWAB, and only under 
this specific requirement, was the only absentee ballot in 
Virginia that required this extra information from a witness. 
Only after a late opinion by the Attorney General that the 
statute was in conflict with Federal law were we able to accept 
the ballots without that information.
    This is an example where a State may put up extra barriers 
to UOCAVA voters. Although the intention of these laws may be 
noble, the fact remains that these laws erect significant 
barriers to many citizens for participating in our most basic 
right.
    The time in which a ballot is available also creates a 
problem for overseas voters to timely receive a paper ballot. 
The Code of Virginia requires offices of elections to have a 
ballot at least 45 days prior to any November general election, 
30 days prior to any other general, special, or primary 
election, or as soon after the deadline as possible in the case 
of a special election when the deadline is unavailable to be 
met. Virginia is fortunate enough to have the time available to 
deliver the ballots in a general election. States that have 
mid-September primaries may not have that luxury for a November 
general election. The time it takes to certify the election, 
then create and print paper ballots may push a jurisdiction 
well into the 30 days prior to an election. That is not enough 
time to process, send, and return a paper ballot for a UOCAVA 
voter.
    In Fairfax County, my office will have held five elections 
in the first 6 months of this year, three of which were special 
elections called with a short amount of lead time. Special 
elections provide the best example of the drastic need to 
improve our ability to deliver ballots to our UOCAVA voters.
    For our February special election, my office issued 5,918 
absentee ballots. 3,352 of those ballots were UOCAVA voters. Of 
those, 1,431 were e-mailed. Only 281 UOCAVA ballots were 
returned for this election, a rate of 19.6 percent.
    Our March special election there were only 35 days between 
the dates. There was no way we could get a ballot to an 
overseas voter in time unless it was transmitted 
electronically. We e-mailed 139 UOCAVA ballots and mailed 214. 
Thirty UOCAVA ballots were returned, a rate of 8 percent.
    If our office only had the ability to send ballots overseas 
via regular mail, I can guarantee you that our return rate 
would be significantly less. Virginia is a good example that 
electronic transmission of ballots works and should be used for 
any UOCAVA voter that requests it.
    Not all of this dismal return rate can be attributed to the 
difficulty of receiving and returning ballots. Most of these 
voters received ballots to an election that they had no idea 
was occurring. We assume that some ballots were just deleted or 
thrown away. But every week we still receive one or two ballots 
from an overseas voter for one of our elections. We recently 
received a ballot for the November general election. We have no 
idea why these ballots take so long to arrive to our office, 
but they do.
    I thank you for the opportunity to speak to you today and I 
look forward to answering any questions.
    [The statement of Mr. Suleman follows:]

    [GRAPHIC] [TIFF OMITTED] T2314A.020
    
    [GRAPHIC] [TIFF OMITTED] T2314A.021
    
    [GRAPHIC] [TIFF OMITTED] T2314A.022
    
    [GRAPHIC] [TIFF OMITTED] T2314A.023
    
    Ms. Lofgren. Thank you very much.
    And we will turn to our final witness, Ms. Duff. Thank you 
so much for your testimony.

               STATEMENT OF MS. JESSIE JANE DUFF

    Ms. Duff. Good morning, Chairwoman Lofgren, Ranking Member 
McCarthy, and members of the committee. Thank you for letting 
me testify today.
    I served in the United States Marine Corps for 20 years and 
retired rather recently; and while I was on active duty I will 
express that I was stationed overseas on four separate tours in 
Okinawa, Japan. Doing this time overseas is very, very 
difficult. The Marine Corps is a very, very unique force. It's 
an expeditionary force. It essentially is not in contact with a 
lot of the United States during the times that they are 
overseas.
    Many civilians may find it very hard to grasp their lack of 
capability to stay in contact. There is no Blackberry. There is 
no iPhone. Even if the technology is with you, it doesn't 
necessarily work overseas. So you are very limited. You do not 
have Internet access, as many people seem to assume that the 
technology will be a quick solution. Often while you are in the 
field you are not out there in a 9 to 5 workday. You are out 
there for weeks. You are out there for months. And often 
getting access to any type of Internet usage is not possible 
for you.
    Our access to voting information during my time while on 
active duty was very, very limited. I did not get approached 
but one time while on active duty by a voting officer to get 
registered to vote; and, unfortunately, I wasn't even stationed 
overseas. I was at Camp Pendleton, California.
    Military members are often disenfranchised for several 
reasons. The reality is that there isn't the information 
accessible to them while they are on forward deployment, even, 
often, when they are in a situation on a normal base that you 
would expect to see more support.
    April 15 is Tax Day. Two months prior to your taxes being 
due, throughout every military installation for two months they 
help you get your taxes done. And then there is a CFC campaign 
where military members are able to volunteer to donate money. 
Guess what? They provide mandatory briefings for everybody so 
that they can donate to CFC. Whether they choose to or not is 
up to them. But yet there aren't mandatory briefings on 
registration processes, and the teams that are available are so 
limited that you don't have readily access to information 
available.
    The most important thing that can happen now for military 
members to get their vote counted--and I am talking about the 
immediate near future, not long term--would be an express mail 
delivery service. And the reason that I feel that this is so 
important is, right now, the technology isn't available to the 
military.
    We do have a unique opportunity as military members with a 
CAC card. The CAC card is your military ID card. The military 
ID card allows you to go into any computer system, and it 
automatically identifies who you are. For the future, it would 
be incredible that a military member can have a voting station 
set up wherever they are at, slide their card. Their ballot is 
signed into wherever that their home or record is, and they get 
their absentee ballot, and they are able to fill it out, and 
then they can express mail it back. But, right now, we don't 
have that system available.
    So there are a lot of ideas out there that we need the 
training and we need the opportunity for military members to 
actively register.
    But in order to get those ballots back on time is probably 
the most critical question right now. A delivery time of 4 days 
means that military ballots can be cast on a Friday afternoon. 
A military man or woman overseas can say, I'm casting my ballot 
today; it is going to be counted by Tuesday. That is an 
incredible feeling when you are in the military. To have to 
cast your ballot 30 days out and not really know how the turn 
of the election is going to go is a very disturbing thought for 
many of us on active duty.
    An overseas military voter can judge candidates on the full 
period of election. As we all know, things do pop up right 
before election time. A delivery time of 4 days with express 
mail, not 3 weeks, will increase turnout because interest in 
elections is highest near the end of the election. You know, to 
force a military member to get actively, aggressively involved 
and there really hasn't been a lot of the interest going until 
that last few weeks is very difficult for them, also.
    Express mail will reduce the need for faxed ballots, which 
can honestly force a military member to lose the integrity of 
their ballot. You don't know who will see that fax. You don't 
know who will witness it.
    Military mail often doesn't have a postmark. This is 
another thing a lot of people don't recognize. MPS does not 
necessarily postmark your mail. So if we say we can accept it 3 
weeks after, how do we know that it was cast before the 
election? We don't. So it is critical. With express mail, you 
are able to see a postmark on that. Four days over 3 weeks of 
delivery is a critical element for military people. An express 
mail delivery time of 4 days, not 3 weeks, would ensure far 
fewer military voters will be disenfranchised and ballots 
arriving late. Express mail would maintain secrecy of the 
ballot, ensure public confidence, which the public does not 
have a lot of confidence in some of the technology right now, 
and military voters will have their ballots counted.
    I respectfully appreciate the opportunity to testify this 
morning, and I am open for any of your questions at this time.
    [The statement of Ms. Duff follows:]

    [GRAPHIC] [TIFF OMITTED] T2314A.024
    
    [GRAPHIC] [TIFF OMITTED] T2314A.025
    
    [GRAPHIC] [TIFF OMITTED] T2314A.026
    
    [GRAPHIC] [TIFF OMITTED] T2314A.027
    
    Ms. Lofgren. Thank you very, very much for your testimony; 
and thanks to all of the witnesses for all of your testimony 
and statements.
    Now is the time when we can follow up with our questions, 
and I would turn first to the ranking member to begin our 
question period.
    Mr. McCarthy. Thank you, Madam Chair.
    I appreciate all the testimony today. I found it very, very 
intriguing.
    Just one quick question to Mr. Suleman. You did bring up--I 
remember the issue about military absentee ballots in your 
jurisdiction, believe that you had to have a witness. Even 
though if you voted absentee and you lived there, you did not 
have to have a witness, and you brought that up in your 
testimony. Was there any jurisdiction in Virginia that 
interpreted it the same way that you guys did?
    Mr. Suleman. There were several jurisdictions in Virginia 
that chose to ignore the law that----
    Mr. McCarthy. So they didn't interpret it the same way you 
did.
    Mr. Suleman. No. They interpreted the law correctly, and 
the Secretary of the State Board of Elections interpreted the 
law that way, but they were choosing to ignore the law.
    In Fairfax County, we felt that we don't have the ability 
to ignore the law. We don't like the law. We brought the law to 
everybody's attention before the election. So this was going to 
be a significant problem and only by the Attorney General's 
opinion saying that the law was in conflict were we able to 
accept those ballots.
    Mr. McCarthy. Did you go back and count those ballots?
    Mr. Suleman. All of those ballots were counted. That is 
correct.
    Mr. McCarthy. Ms. Duff, thank you for your testimony. I 
found it very intriguing especially from--one, for your service 
that you provided for 20 years, for all of the service that you 
provided.
    But you made some very interesting comments, to me. I mean, 
we look at how do we solve the system today in the best manner 
that we can and in the future even improve it? Some of the 
testimony talked about the Internet and stuff and real-life 
experience that you gave that you don't have the option for 
that. And you talked about express mail, which I happen to put 
in a bill and that does the express mail in the 4 days.
    But when we talk about this issue, we talk about military 
voting and we talk about overseas voting; and it always gets 
lumped together. But in your testimony you brought a lot of 
attention to me that the different hardships if you are in the 
military could be much different than if you are just a citizen 
overseas. And if you could explain and maybe elaborate a little 
more, the difference, and should they be treated different? 
Because, right now, it doesn't seem that they are being treated 
differently.
    Ms. Duff. Military members are sent overseas not 
necessarily out of choice. They are sent there by the Federal 
Government, and they will ensure that they serve their duty 
over there. They are going to be subjected to, usually, long 
periods away from their families. There are often enduring 
circumstances in the field operations that do not offer 
facilities that most people would experience who are civilians 
overseas. The hardships are very, very difficult.
    And I am not even talking about combat operations. Keep in 
mind I served in field operations that were not combat related. 
We trained explicitly for combat, and we duplicated combat 
conditions, but I wasn't in a combat situation. My mail was 
delayed constantly. I mean, I remember getting vacation 
postcards after my mother got home a month earlier. So that was 
quite interesting.
    But those may be humorous examples, but when you are 
talking about an election, military members do not have the 
choices that a lot of their civilian counterparts have. You are 
talking 7-day workweeks, often. And sometimes you go to sleep 
literally to get right up and go back into your post.
    Mr. McCarthy. Another point that you brought up that was 
very intriguing to me is you have got Tax Day, you have got 
CFC. That is Combined----
    Ms. Duff. Combined Federal Campaign.
    Mr. McCarthy. The campaign. Those are mandatory, but you 
had no mandatory when it came to voting assistance within 
there?
    Ms. Duff. I wouldn't say that the tax offices that they set 
are mandatory. What they do, though, is about 2 to 3 months 
prior to your taxes being due, they set up offices throughout 
the base to assist people with taxes. And the teams are 
trained. Not just one officer. You are trained on basically 
submitting State and Federal taxes.
    Now, those tax laws get pretty complicated, I would assume, 
too. So, obviously, voting laws can be something that they can 
be trained in, and I think there should be facilities that are 
easily accessible for military members to acquire. Not only 
when they come onto base do they get registered with that CAC 
card. That CAC card is a guaranteed signature that this is a 
real person. They can utilize that.
    But, also, the Federal absentee write-in ballot, that has 
been around since 1986. I never heard of it while I was on 
active duty, not once.
    One of the members--one of my friends who served in Iraq on 
his third tour told me that he had not received his absentee 
ballot on time. He had to pull himself out of the field, found 
the Internet, found a Federal write-in ballot, and never heard 
of it himself, and got his ballot cast on time.
    Now, with express mail, you get the Federal write-in ballot 
mailed in, or you can get your absentee ballot write-in. I 
mean, 2010 is right around the corner. I think we have got to 
have a quick solution and then we can work on some of these 
technology issues so they are proficient and good for the rest 
of the population.
    Mr. McCarthy. One thing, when you said express mail, you 
talked about they don't even postmark your mail. So we wouldn't 
know--that would give Mr. Suleman difficulty of knowing when it 
was mailed or if you could count it in time when the election 
is over.
    So, one, we are putting a burden upon you currently the way 
the system is? But if you had a tracking system, with express 
mail you could track each ballot so you would know where it was 
at and where it was coming from. Would you find that as 
something that would be helpful in----
    Ms. Duff. Absolutely. Military members often feel like they 
are going into a big abyss when they cast that ballot. They 
don't know that it even gets there.
    The reality is, with express mail, we are going to go from 
3 weeks to 4 days. And it sounds like there have been times 
when it has been longer than 3 weeks, sometimes 4 or 5 weeks. 
That is an undue burden on a military member to ensure that 
they get that ballot in the mailbox on time.
    Express mail can happen. I have seen many things happen in 
the military. When they are told to do it, they do it. And they 
can get those express mail forms filled out Friday, and it is 
counted on Tuesday, and everything is on time, and States don't 
have to modify their laws now.
    Ms. Lofgren. The gentleman's time has expired.
    I would turn to the gentlelady from California, Mrs. Davis, 
for her questions.
    Mrs. Davis of California. Thank you, Madam Chair; and thank 
you all for being here and for your service as well.
    I am glad that my colleague brought up the tracking system, 
because we are working together on a bill that would allow 
voters overseas--military voters, of course--to do this. There 
are several States that already have it, and even in our area 
in San Diego there were something like 98,000 voters who 
checked our online system to see where their ballots were. So 
we think that's very, very valuable; and you mentioned, Ms. 
Duff, that that would be helpful.
    Let me just see if I could ask others as well if this would 
make a difference. One of the things that was mentioned is that 
you can't always have access to the Internet, but still the 
tracking would be helpful, and would that be----
    Ms. Duff. Well, you can always--eventually, you will have 
access to the Internet. So it is not something that--
eventually, you can go back and see that your vote was counted. 
And I am not saying all military is unable to use the Internet. 
But even if you could go back a week after you come out of the 
field and say, yea, my vote counted.
    Mrs. Davis of California. Could the rest of you respond in 
terms of the ability of voters to track their ballot and how 
helpful that would be?
    Ms. McGinn. I think it would be very helpful. I think you 
are back to the situation where the States treat--have 
different rules about electronic transmission and what they 
pass back and forth, and so you are back to struggling with how 
do you get States to do that as a whole.
    I think that Ms. Duff raises an interesting point and one 
of the things that we talk about which is that nobody's 
situation is the same. And so some people need to send their 
ballot; some people can fax their ballot. In some cases, they 
can actually transmit their ballot electronically. So we need 
to cover all those bases somehow, which is a challenge of the 
programs. But that would be my sense, that it would be good to 
be able to track it.
    Mrs. Davis of California. I think even thinking about a 
tracking system, being able to do it online but also an 800 
number would be included in that legislation.
    Captain Garcia. Thank you, ma'am. I think it would be very 
satisfying for military members to know that their vote is 
counting and it doesn't get lost in the abyss.
    The only thing I would like to add is we are only talking 
about our overseas where there are still a lot of military 
members here in the States who feel like their vote doesn't 
count. So the only thing I would ask--I don't know the 
specifics of the legislation, if it's also going to include 
absentee within the U.S., not just our overseas members.
    Mrs. Davis of California. Yes, absolutely. That is the 
whole idea, yes. Countrywide and I guess overseas, so that is 
global, right?
    Mr. Suleman. From an election administrative standpoint, I 
would truly welcome an online ability to check the status of 
your absentee ballot. We do have something like that in 
Virginia, and anything that can take the burden of phone calls 
away from our office during the last 30 days of an election to 
help us prepare for everything that we have to have to do is a 
welcome advancement.
    The tracking for express mail would also be a significant 
help to us if we can determine when a ballot was put into the 
mail in the first place. That way we don't have to worry about, 
you know, attempting to check postmarks.
    In Ohio, my previous jurisdiction, we were able to accept 
absentee ballots up to 10 days after the election as long as 
they were postmarked; and we also received a directive from the 
Secretary of State that if we could not determine a postmark, 
if there was not a postmark, we have to assume it was mailed 
prior to the election. So we at least open up a window to allow 
a little bit more ballots to be accepted.
    In Virginia, unfortunately, all absentee ballots have to be 
received by my office by the close of election day. That's a 
significant impediment to collecting overseas ballots. I would 
welcome a standard uniform rule where any overseas ballot would 
be accepted within a 10-day or a 5-day window, whatever that 
window is selected to be, but at least a window after the 
election so that we can get a little bit more of these ballots 
counted.
    Ms. McGinn. We actually have some experience with tracking, 
I hear, so if I could just turn to my colleague, Mr. Bush, for 
a minute.
    Mr. Bush. I think it is just important to note for the 2008 
election we did work with the United States Postal Service and 
not in every region, but we did use a tracking system where 
they had the technology. They were in the process of doing 
that. So they were putting a bar code on the ballots so we 
could track them coming back.
    We also used express mail the last week of the election to 
expedite mail coming back, working with the Postal Service.
    And one of the comments that was made is that the military 
postal service doesn't postmark material. In fact, the Postal 
Service for balloting material, they were issued a postmark so 
they could postmark every ballot so we could identify and track 
when it was received into the system.
    Mrs. Davis of California. Thank you.
    Can you all think of any reason why we shouldn't do that?
    It sounded pretty unanimous to me.
    Okay, thank you very much, Madam Chair. I actually have a 
few other questions if there is another round, but, otherwise, 
I want to thank you all.
    Ms. Lofgren. All right. The gentleman from Mississippi, Mr. 
Harper.
    Mr. Harper. Thank you for being here today.
    It is a great concern we have to make sure that the votes 
of our men and women in the military are counted. Do any of you 
think that those that are in uniform overseas should be treated 
differently than just civilians who are overseas in the 
process?
    Ms. Duff. I do.
    Mr. Harper. Why do you think they should be treated 
differently?
    Ms. Duff. Because of the conditions they have to endure 
that most of your civilians who choose to be overseas are not 
enduring. Military members are sent there by the Federal 
Government, and the Federal Government should be responsible 
for ensuring that their vote is counted, and the conditions 
that they are under do not allow that normally.
    Mr. Harper. So extra attention and extra effort to make 
sure that those are properly cast.
    Ms. Duff. Absolutely. They are there in service of their 
country, sir.
    Mr. Harper. And I know they seem to always be lumped 
together in these requirements. So, Ms. McGinn, I would love to 
have your views on that.
    Ms. McGinn. I expect that--I guess maybe I am thinking of 
the State Department now specifically or industry, but I 
suspect that our military members probably tend to be younger 
and maybe away from home for the first time. And so, therefore, 
I think we need to be very assertive in getting the word out to 
them, as Ms. Duff said.
    We try to use every possible way to get the word out to 
people about voting. Our senior leaders have commented, you 
know, they go into our deployed areas and everywhere they look 
as election approaches, there are banners and posters and it is 
hard to not see them. But I think that the fact that they are 
younger and they don't have as much experience perhaps really 
does mean we need to do a very, very proactive effort, outreach 
effort to them.
    Mr. Harper. Now, the Department of Defense knows what the 
declared state of permanent residence is of every member of the 
military, do they not? They would have that information 
somewhere within their files, whether they were----
    Ms. Duff. Yes.
    Mr. Harper [continuing]. From Texas or whatever State. 
Would that be correct?
    Mr. Bush. If I can answer that.
    Mr. Harper. Yes.
    Mr. Bush. We know what their home of record is. We know 
where they are currently stationed. That may be different than 
where they register to vote.
    So, right now, in fact, I am exploring with our Privacy Act 
folks if there is a way that we can get the place where they 
are registered to vote. There are some concerns. I have got to 
work through that. But that would be helpful then if we could 
target where they are registered to vote. Because in our 
business that is what really matters.
    Mr. Harper. And I know we are talking about many, many 
people, but if you had that in the system where their declared 
voter residency was and then there was a change of duty, is 
that something that you could envision that the DOD could 
notify then of a new or a change of address for them for that 
purpose?
    Mr. Bush. What we could do when we--that is part of the 
privacy concern, is what we share with the States. But if we 
had that information we could push information to that 
particular member, just like we have somebody that checks in a 
new duty station, but we could push that information to the 
members, reminding them that they need to register to vote, 
they need to change their location when they do change that.
    If I could just point out one thing that you were talking 
about, the difference between military and civilians stationed 
overseas. There is a difference, I think, but you also have to 
think of people like Peace Corps workers who may be in remote 
locations that may have the same sort of hardships that some 
military members experience.
    So we have to--you can't just separate, I think, the two 
into two distinct groups. We have to think holistically, but an 
extra effort in the military and those that are in remote 
locations clearly is an area that we need to focus on.
    Mr. Harper. Certainly we appreciate what those in the Peace 
Corps do, but it is a little different for those who are in 
uniform who put their lives on the line in combat situations. 
Is there any problem giving them preferential treatment to make 
sure that we don't miss those opportunities to cast those 
ballots?
    Mr. Bush. No, sir. I am not saying we should not make every 
effort to keep our military informed and help them in the 
voting process, no.
    Mr. Harper. Captain Garcia, if I could ask you, is there 
any voter registration card or information that when somebody 
comes to your base and gets information that perhaps could be 
used to help them in that process?
    Captain Garcia. Yes, sir. As I mentioned in my statement, 
when people come in, we continue our continuous education 
instruction. We have monthly briefings for first-term airmen 
and newcomers to the base. Anybody who comes into the base will 
have to go to either one of those venues. At that point, we do 
have a brief and our counselors are trained to help them 
actually fill out their Federal Voting Assistance Program.
    Also, as I mentioned, we have the static displays that are 
located at the MPF, the BX, and the library. So as you are 
walking by you can see the large displays; and if you have any 
questions, the pamphlets can direct you to your unit counselor 
to help you fill those.
    Mr. Harper. Is there any follow-up to monitor who has 
filled those out and who has not?
    Captain Garcia. We are not allowed to do that, sir.
    Mr. Harper. Okay. Thank you very much. That's all the 
questions I have.
    Ms. Lofgren. The gentleman yields back.
    I think this has been very helpful. And as I think about 
the testimony here today, it strikes me that we need to do 
everything, not choose among alternatives. For example, as Mr. 
Bush has said, we have got people who are in remote areas in 
the Peace Corps, in the CIA, in the military, I mean, in the 
State Department, USAID, who have different constraints; and 
then we have people, Americans, who are in the State 
Department, but they are in London, and the challenges are 
going to be different.
    So I think that the use of technology, the use of priority 
mail, I mean, those are all good things. And whatever we do, we 
need to make sure that they are all approached so that we can 
serve everybody.
    In terms of the military, I mean, we have got--2 years ago, 
nearly 46,000 of our American military were noncitizens. So we 
need to make sure--I like the military ID card, but not 
everybody with a military ID card is eligible to vote because 
they are not an American citizen. So we can use that, but there 
needs to be another level of assurance on that.
    I am interested, Mr. Suleman, on the Internet issue. 
Because for some voters abroad or even military within the 
United States, for example, New York. New York has a September 
primary. I guess that is up to them, but it makes it very 
difficult to mail out--it is almost impossible to mail out a 
ballot to Iraq and get it back with a September ballot. So the 
Internet example I think is very attractive to me, and 
certainly the use of the Internet has exploded even since you 
were in the military in 2004. A friend of mine was just 
deployed to Iraq. He has a blog. So I mean really the Internet 
is exploding.
    What kind of security do you have? That's the question we 
always get what about the security if we use the Internet? I 
always think I feel secure enough when I do my banking on line, 
but what would you recommend when somebody worries about the 
integrity of the system?
    Mr. Suleman. The security of an Internet e-mail ballot to 
me would be almost the same as the security, as long as it is 
sent on a secure server, the same as security for a regular 
absentee ballot. There is some thought that people lose the 
secrecy of the ballot when they would potentially e-mail a 
ballot. The same thing exists when you submit any sort of 
absentee ballot, because an election official has to separate 
that ballot from that identification envelope, and at that 
particular moment there is a potential to identify a vote to a 
voter.
    I do believe that we should start looking for more e-mail 
and Internet solutions. I mean, you said about your banking. I 
pay all my utility bills online. I buy concert tickets online. 
I buy pizza online. I do my banking online. I really don't see 
why we cannot, you know, afford people the ability to both 
receive and submit a ballot online. There are secure methods to 
transmit material over the Internet, and we do it all the time, 
and I really don't see why we can't do that for our ballots for 
overseas citizens.
    Ms. Lofgren. Ms. McGinn, what do you think about the 
Internet option? What are the constraints that you see?
    Ms. McGinn. I think it is a very valuable option. I mean, 
we have deployed in Iraq right now Internet cafes for the 
troops who are over there so that they have access to Internet 
sites.
    What we are trying to do with our next step in technology 
is to create the secure environment and to expand the use of 
the Internet for receiving a ballot, maybe someday submitting a 
ballot. I think, as we said before, it's an option that's very 
important. Someday we will probably all do it.
    Of course, there are security issues involved; and we are 
awaiting some advice from the Elections Assistance Committee 
and NIST on what we would need to do to create a secure 
environment for voting. But we have had several initiatives in 
that way, and I think it is important for us to continue to 
pursue them.
    Ms. Lofgren. I will just say I know that NIST is the expert 
on all of these technologies. We are blessed in the United 
States to have that government entity that is so nerdy and so 
on top of this stuff. So we will look to them for good advice. 
But I think that this has been an important first step.
    Obviously, we want to make sure that the men and women who 
are American citizens have every chance to vote and to know 
that they have the right to vote, but also our Peace Corps and 
everybody has got a right to vote, has that chance to go ahead 
and exercise that franchise. So I think this has been 
enormously helpful.
    We will be holding open this hearing for 5 legislative days 
to allow for additional questions; and if we do have them, we 
will forward them to you and ask that you answer them as 
promptly as possible.
    I think we had a few requests for testimony to be 
submitted, and I would ask unanimous consent that the following 
documents be made part of the official record: a statement from 
Democrats Abroad, a statement from the Uniform Law Commission; 
a statement by Dr. Alec Yasinsac; a statement by Everyone 
Counts; a statement by FAWCO, AARO, and ACA; a statement by 
PEW; a statement by OVF; a statement by FairVote; and a 
statement by Congressman Rush Holt. And, without objection, 
those statements will be made part of the record.
    [The information follows:]

    [GRAPHIC] [TIFF OMITTED] T2314A.028
    
    [GRAPHIC] [TIFF OMITTED] T2314A.029
    
    [GRAPHIC] [TIFF OMITTED] T2314A.030
    
    [GRAPHIC] [TIFF OMITTED] T2314A.031
    
    [GRAPHIC] [TIFF OMITTED] T2314A.032
    
    [GRAPHIC] [TIFF OMITTED] T2314A.033
    
    [GRAPHIC] [TIFF OMITTED] T2314A.034
    
    [GRAPHIC] [TIFF OMITTED] T2314A.035
    
    [GRAPHIC] [TIFF OMITTED] T2314A.036
    
    [GRAPHIC] [TIFF OMITTED] T2314A.037
    
    [GRAPHIC] [TIFF OMITTED] T2314A.038
    
    [GRAPHIC] [TIFF OMITTED] T2314A.039
    
    [GRAPHIC] [TIFF OMITTED] T2314A.040
    
    [GRAPHIC] [TIFF OMITTED] T2314A.041
    
    [GRAPHIC] [TIFF OMITTED] T2314A.042
    
    [GRAPHIC] [TIFF OMITTED] T2314A.043
    
    [GRAPHIC] [TIFF OMITTED] T2314A.044
    
    [GRAPHIC] [TIFF OMITTED] T2314A.045
    
    [GRAPHIC] [TIFF OMITTED] T2314A.046
    
    [GRAPHIC] [TIFF OMITTED] T2314A.047
    
    [GRAPHIC] [TIFF OMITTED] T2314A.048
    
    [GRAPHIC] [TIFF OMITTED] T2314A.049
    
    [GRAPHIC] [TIFF OMITTED] T2314A.050
    
    [GRAPHIC] [TIFF OMITTED] T2314A.051
    
    [GRAPHIC] [TIFF OMITTED] T2314A.052
    
    [GRAPHIC] [TIFF OMITTED] T2314A.053
    
    [GRAPHIC] [TIFF OMITTED] T2314A.054
    
    [GRAPHIC] [TIFF OMITTED] T2314A.055
    
    [GRAPHIC] [TIFF OMITTED] T2314A.056
    
    [GRAPHIC] [TIFF OMITTED] T2314A.057
    
    [GRAPHIC] [TIFF OMITTED] T2314A.058
    
    [GRAPHIC] [TIFF OMITTED] T2314A.059
    
    [GRAPHIC] [TIFF OMITTED] T2314A.060
    
    [GRAPHIC] [TIFF OMITTED] T2314A.061
    
    [GRAPHIC] [TIFF OMITTED] T2314A.062
    
    [GRAPHIC] [TIFF OMITTED] T2314A.063
    
    [GRAPHIC] [TIFF OMITTED] T2314A.064
    
    [GRAPHIC] [TIFF OMITTED] T2314A.065
    
    [GRAPHIC] [TIFF OMITTED] T2314A.066
    
    [GRAPHIC] [TIFF OMITTED] T2314A.067
    
    [GRAPHIC] [TIFF OMITTED] T2314A.068
    
    [GRAPHIC] [TIFF OMITTED] T2314A.069
    
    [GRAPHIC] [TIFF OMITTED] T2314A.070
    
    [GRAPHIC] [TIFF OMITTED] T2314A.071
    
    [GRAPHIC] [TIFF OMITTED] T2314A.072
    
    [GRAPHIC] [TIFF OMITTED] T2314A.073
    
    [GRAPHIC] [TIFF OMITTED] T2314A.074
    
    [GRAPHIC] [TIFF OMITTED] T2314A.075
    
    [GRAPHIC] [TIFF OMITTED] T2314A.076
    
    [GRAPHIC] [TIFF OMITTED] T2314A.077
    
    [GRAPHIC] [TIFF OMITTED] T2314A.078
    
    [GRAPHIC] [TIFF OMITTED] T2314A.079
    
    [GRAPHIC] [TIFF OMITTED] T2314A.080
    
    [GRAPHIC] [TIFF OMITTED] T2314A.081
    
    [GRAPHIC] [TIFF OMITTED] T2314A.082
    
    [GRAPHIC] [TIFF OMITTED] T2314A.083
    
    [GRAPHIC] [TIFF OMITTED] T2314A.084
    
    [GRAPHIC] [TIFF OMITTED] T2314A.085
    
    [GRAPHIC] [TIFF OMITTED] T2314A.086
    
    [GRAPHIC] [TIFF OMITTED] T2314A.087
    
    [GRAPHIC] [TIFF OMITTED] T2314A.088
    
    [GRAPHIC] [TIFF OMITTED] T2314A.089
    
    [GRAPHIC] [TIFF OMITTED] T2314A.090
    
    [GRAPHIC] [TIFF OMITTED] T2314A.091
    
    [GRAPHIC] [TIFF OMITTED] T2314A.092
    
    [GRAPHIC] [TIFF OMITTED] T2314A.093
    
    [GRAPHIC] [TIFF OMITTED] T2314A.094
    
    [GRAPHIC] [TIFF OMITTED] T2314A.095
    
    [GRAPHIC] [TIFF OMITTED] T2314A.096
    
    [GRAPHIC] [TIFF OMITTED] T2314A.097
    
    [GRAPHIC] [TIFF OMITTED] T2314A.098
    
    [GRAPHIC] [TIFF OMITTED] T2314A.099
    
    [GRAPHIC] [TIFF OMITTED] T2314A.100
    
    [GRAPHIC] [TIFF OMITTED] T2314A.101
    
    [GRAPHIC] [TIFF OMITTED] T2314A.102
    
    [GRAPHIC] [TIFF OMITTED] T2314A.103
    
    [GRAPHIC] [TIFF OMITTED] T2314A.104
    
    [GRAPHIC] [TIFF OMITTED] T2314A.105
    
    [GRAPHIC] [TIFF OMITTED] T2314A.106
    
    [GRAPHIC] [TIFF OMITTED] T2314A.107
    
    [GRAPHIC] [TIFF OMITTED] T2314A.108
    
    [GRAPHIC] [TIFF OMITTED] T2314A.109
    
    [GRAPHIC] [TIFF OMITTED] T2314A.110
    
    [GRAPHIC] [TIFF OMITTED] T2314A.111
    
    [GRAPHIC] [TIFF OMITTED] T2314A.112
    
    [GRAPHIC] [TIFF OMITTED] T2314A.113
    
    [GRAPHIC] [TIFF OMITTED] T2314A.114
    
    [GRAPHIC] [TIFF OMITTED] T2314A.115
    
    [GRAPHIC] [TIFF OMITTED] T2314A.116
    
    [GRAPHIC] [TIFF OMITTED] T2314A.117
    
    [GRAPHIC] [TIFF OMITTED] T2314A.118
    
    [GRAPHIC] [TIFF OMITTED] T2314A.119
    
    [GRAPHIC] [TIFF OMITTED] T2314A.120
    
    [GRAPHIC] [TIFF OMITTED] T2314A.121
    
    [GRAPHIC] [TIFF OMITTED] T2314A.122
    
    [GRAPHIC] [TIFF OMITTED] T2314A.123
    
    [GRAPHIC] [TIFF OMITTED] T2314A.124
    
    [GRAPHIC] [TIFF OMITTED] T2314A.125
    
    [GRAPHIC] [TIFF OMITTED] T2314A.126
    
    [GRAPHIC] [TIFF OMITTED] T2314A.127
    
    [GRAPHIC] [TIFF OMITTED] T2314A.128
    
    [GRAPHIC] [TIFF OMITTED] T2314A.129
    
    [GRAPHIC] [TIFF OMITTED] T2314A.130
    
    [GRAPHIC] [TIFF OMITTED] T2314A.131
    
    [GRAPHIC] [TIFF OMITTED] T2314A.132
    
    [GRAPHIC] [TIFF OMITTED] T2314A.133
    
    [GRAPHIC] [TIFF OMITTED] T2314A.134
    
    [GRAPHIC] [TIFF OMITTED] T2314A.135
    
    [GRAPHIC] [TIFF OMITTED] T2314A.136
    
    [GRAPHIC] [TIFF OMITTED] T2314A.137
    
    [GRAPHIC] [TIFF OMITTED] T2314A.138
    
    [GRAPHIC] [TIFF OMITTED] T2314A.139
    
    [GRAPHIC] [TIFF OMITTED] T2314A.140
    
    [GRAPHIC] [TIFF OMITTED] T2314A.141
    
    [GRAPHIC] [TIFF OMITTED] T2314A.142
    
    [GRAPHIC] [TIFF OMITTED] T2314A.143
    
    [GRAPHIC] [TIFF OMITTED] T2314A.144
    
    [GRAPHIC] [TIFF OMITTED] T2314A.145
    
    [GRAPHIC] [TIFF OMITTED] T2314A.146
    
    [GRAPHIC] [TIFF OMITTED] T2314A.147
    
    [GRAPHIC] [TIFF OMITTED] T2314A.148
    
    [GRAPHIC] [TIFF OMITTED] T2314A.149
    
    [GRAPHIC] [TIFF OMITTED] T2314A.150
    
    [GRAPHIC] [TIFF OMITTED] T2314A.151
    
    [GRAPHIC] [TIFF OMITTED] T2314A.152
    
    [GRAPHIC] [TIFF OMITTED] T2314A.153
    
    [GRAPHIC] [TIFF OMITTED] T2314A.154
    
    [GRAPHIC] [TIFF OMITTED] T2314A.155
    
    [GRAPHIC] [TIFF OMITTED] T2314A.156
    
    [GRAPHIC] [TIFF OMITTED] T2314A.157
    
    [GRAPHIC] [TIFF OMITTED] T2314A.158
    
    [GRAPHIC] [TIFF OMITTED] T2314A.159
    
    [GRAPHIC] [TIFF OMITTED] T2314A.160
    
    [GRAPHIC] [TIFF OMITTED] T2314A.161
    
    [GRAPHIC] [TIFF OMITTED] T2314A.162
    
    [GRAPHIC] [TIFF OMITTED] T2314A.163
    
    [GRAPHIC] [TIFF OMITTED] T2314A.164
    
    [GRAPHIC] [TIFF OMITTED] T2314A.165
    
    [GRAPHIC] [TIFF OMITTED] T2314A.166
    
    [GRAPHIC] [TIFF OMITTED] T2314A.167
    
    [GRAPHIC] [TIFF OMITTED] T2314A.168
    
    [GRAPHIC] [TIFF OMITTED] T2314A.169
    
    [GRAPHIC] [TIFF OMITTED] T2314A.170
    
    [GRAPHIC] [TIFF OMITTED] T2314A.171
    
    [GRAPHIC] [TIFF OMITTED] T2314A.172
    
    [GRAPHIC] [TIFF OMITTED] T2314A.173
    
    [GRAPHIC] [TIFF OMITTED] T2314A.174
    
    [GRAPHIC] [TIFF OMITTED] T2314A.175
    
    [GRAPHIC] [TIFF OMITTED] T2314A.176
    
    [GRAPHIC] [TIFF OMITTED] T2314A.177
    
    [GRAPHIC] [TIFF OMITTED] T2314A.178
    
    [GRAPHIC] [TIFF OMITTED] T2314A.179
    
    [GRAPHIC] [TIFF OMITTED] T2314A.180
    
    [GRAPHIC] [TIFF OMITTED] T2314A.181
    
    [GRAPHIC] [TIFF OMITTED] T2314A.182
    
    [GRAPHIC] [TIFF OMITTED] T2314A.183
    
    [GRAPHIC] [TIFF OMITTED] T2314A.184
    
    [GRAPHIC] [TIFF OMITTED] T2314A.185
    
    Ms. Lofgren. We will now be in adjournment with tremendous 
thanks to you for your wonderful testimony in helping us move 
forward on this enormously important issue.
    [Whereupon, at 10:57 a.m., the subcommittee was adjourned.]

                                  <all>

</pre></body></html>
